TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Individual Taxpayer Identification Numbers
                      Are Being Issued Without Sufficient
                          Supporting Documentation



                                        December 8, 2009

                              Reference Number: 2010-40-005




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1=Tax Return/Return Information



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           December 8, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Individual Taxpayer Identification Numbers Are
                              Being Issued Without Sufficient Supporting Documentation
                              (Audit # 200940006)

 This report presents the results of our review to determine whether Individual Taxpayer
 Identification Numbers (ITIN) were being issued without sufficient supporting documentation.
 The overall objective of this review was to determine whether Applications for IRS Individual
 Taxpayer Identification Number (Form W-7) were efficiently and effectively processed and
 ITINs were appropriately issued. This audit was part of the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2008 Annual Audit Plan under the major management challenge of
 Providing Quality Taxpayer Service Operations.

 Impact on the Taxpayer
 The purpose of the ITIN is to provide alien individuals, whether or not they reside in the United
 States, an identifying number for use in connection with United States tax return filing
 requirements. The volume of ITINs is growing. When Forms W-7 are not effectively processed
 and ITINs are inappropriately issued, the risk increases that ITINs are being used to file
 fraudulent tax returns. Inadequate processing of ITIN application packages increases the risk to
 both the taxpaying public and the Federal Government for potential losses associated with ITIN
 applicants.

 Synopsis
 The ITIN was created to provide individuals who are not eligible to obtain a Social Security
 Number with an identification number for tax purposes. The Internal Revenue Service (IRS)
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation



issues ITINs to help individuals comply with Federal tax laws and provide a means to efficiently
process and account for tax returns. Only individuals who have a valid filing requirement or are
filing a tax return to claim a refund of over-withheld taxes are eligible to receive an ITIN.
Individuals submit Forms W-7 through Acceptance Agents 1 or by submitting them directly to the
IRS.
ITINs were issued without sufficient supporting documentation. A statistical sample of
658 Forms W-7 selected from 1.5 million application packages (cases) submitted from January 1
through November 21, 2008, showed that 510 cases (78 percent) contained errors. The highest
error rate (87 percent) was in applications submitted through Certified Acceptance Agents. 2 This
includes instances in which the Agents did not provide the documents required to support the
Forms W-7 submitted by them to the Treasury Inspector General for Tax Administration.
However, there was also a significant error rate (35 percent) in application packages submitted
directly to the IRS.
A Certified Acceptance Agent is authorized under an agreement with the IRS to submit a
Form W-7 to the IRS on behalf of an ITIN applicant without furnishing supporting documentary
evidence. Instead, in the certificates of accuracy, Agents certify to the IRS that they have
reviewed the appropriate documentation evidencing the ITIN applicant’s identity and alien
status, and that they are maintaining a record of such documentation.
IRS employees process, but do not review, the applications submitted by Certified Acceptance
Agents. They input the information from the Forms W-7 into the ITIN management information
system called the Real-Time System. If all requirements are met, the ITIN is assigned
systemically by the ITIN Real-Time System. Eighty-seven percent (467 of 535) of the sample of
application packages submitted by Certified Acceptance Agents contained errors. For example,
1) cases did not contain the documents required to issue an ITIN, 2) Forms W-7 provided to us
by the Certified Acceptance Agents did not agree with the original Forms W-7 that were sent to
the IRS, 3) cases did not contain the required certificates of accuracy or the certificates were
missing required information and/or signatures, or 4) the Certified Acceptance Agents did not
comply with our request for copies of the application packages.




1
  An Acceptance Agent is a person (an individual or an entity) who, pursuant to a written agreement with the IRS, is
authorized to assist alien individuals and other foreign persons (who are ineligible to receive a Social Security
Number) in obtaining an ITIN from the IRS. The Acceptance Agent reviews the necessary documents and forwards
the completed Form W-7 and supporting documents to the IRS. A Certified Acceptance Agent is authorized to
certify whether the documented proof is adequate and is not required to send the supporting documentation to the
IRS, but agrees to maintain a record of the documentation obtained and reviewed pursuant to the obligations set
forth in the agreement.
2
  A sample of Acceptance Agents was selected from the ITIN data but after review the applications were
determined to be submitted by Certified Acceptance Agents and not Acceptance Agents.
                                                                                                                   2
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation



IRS employees review and process applications submitted directly to the IRS. Thirty-five
percent (43 of 123) of the application packages sampled that were submitted directly to the IRS
by mail or through Taxpayer Assistance Centers 3 contained errors. The errors ranged from
missing and illegible documents to inconsistencies between the Forms W-7 and the supporting
documents.
Also, supporting documents are complex and guidelines are inconsistent. Inconsistent guidelines
create confusion for taxpayers and Agents in attempting to comply with the proper preparation of
a Form W-7 and determining the identification documents needed to support the issuance of an
ITIN.
There are also no controls to prevent an ITIN from being used by more than one taxpayer on
multiple tax returns. More than 60,000 ITINs were assigned and used on multiple tax returns
processed in Calendar Year 2008. As with Social Security Numbers, ITINs are specific to
individuals and should be issued to and used only by that individual.
********************************1*******************************************
****************************************************************************
****************************************************************************
******************************. In addition, more than 55,000 ITINs were used multiple
times on approximately 102,000 tax returns with refunds totaling more than $202 million.
The Real-Time System contains inaccurate data and is insufficient to oversee the Program. The
IRS states that the System provides a one-stop service for processing Forms W-7 and issuing
ITINs. The System processes Forms W-7 in real-time and assigns the ITIN or creates reject or
suspense Forms W-7 automatically. Nevertheless, the information does not accurately reflect
what type of Agent submitted the Forms W-7 and does not accurately reflect the information
captured on the Forms W-7.
Research on the Real-Time System for 547 cases in our statistical sample found that 270 records
(49 percent) contained inaccurate information relating to what type of Agent submitted the
application. The IRS does not know the volume of Forms W-7 that are submitted by Certified
Acceptance Agents and, if not corrected, approximately 200 Certified Acceptance Agents may
not be included in any compliance activity.
In addition, information reflected on 110 (20 percent) of the 547 Forms W-7 was not transcribed
correctly to the Real-Time System. Transcription errors included incorrect identification
documents, birth dates, codes/reasons for submitting the Forms W-7, names, and/or addresses.




3
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
                                                                                                                  3
                          Individual Taxpayer Identification Numbers Are
                    Being Issued Without Sufficient Supporting Documentation




Recommendations
We recommended that the Commissioner, Wage and Investment Division, revise guidelines:
1) related to processing applications submitted by Certified Acceptance Agents to ensure that the
Forms W-7 match the information on the certificates of accuracy before issuing ITINs and to
ensure that any supporting documents submitted with the certificates of accuracy are reviewed
with the same due diligence that is required for Forms W-7 submitted directly to the IRS by
individual applicants; 2) related to processing applications submitted directly to the IRS to
ensure that all information on the Forms W-7 is validated and consistent with supporting
documentation; and 3) to ensure that the instructions for completing the Form W-7 and internal
guidelines are consistent by clarifying who is required to complete a power of attorney,
clarifying that prior versions of Form W-7 may be acceptable, and requiring that employees
verify qualified applicants provide an entry date to the United States.
The Commissioner, Wage and Investment Division, should also 4) develop controls to prevent
ITINs from being used on multiple tax returns, 5) ensure that the data on the Real-Time System
are accurate, and 6) develop procedures and internal controls to monitor the Real-Time System
to ensure that information entered is accurate.

Response
IRS management agreed with five of our six recommendations. Concerning the first three
recommendations, the IRS has taken steps to revise and update guidance and instructions to
ensure consistency and will update current guidelines to ensure the information on the Form W-7
is validated and consistent. For Recommendations 5 and 6, the IRS, contingent on funding, will
take corrective actions to update the Real-Time System and ensure the information entered is
accurate.
The IRS disagreed with Recommendation 4, stating that tax returns submitted with a duplicate
secondary/dependent ITIN are subject to compliance review after the return is processed and
corrected as necessary. Management’s complete response to the draft report is included in
Appendix VIII.

Office of Audit Comment
In its response, the IRS stated it was concerned with the weighting of the sample of Certified
Acceptance Agent cases and that the sample was weighted based on one of our prior reports. 4
As such, it believes the results are not a true representation of the overall program. We do not

4
 Inadequate Management Information Has Adversely Affected the Acceptance Agent Program (Reference
Number 2009-40-087, dated June 19, 2009).
                                                                                                    4
                        Individual Taxpayer Identification Numbers Are
                  Being Issued Without Sufficient Supporting Documentation



agree. The reason we oversampled Certified Acceptance Agents was to increase the reliability of
the results. It was based on a higher expected error rate as well as to account for Agents who
may not provide the requested documents. Of the 535 Certified Acceptance Agents sampled,
102 (19 percent) did not respond. We believe the oversample was necessary and the overall
representation of the ITIN Program is accurate.
The IRS pointed out that the Internal Revenue Code does not require parenthood to claim a
dependent. We agree and modified the report to avoid the potential for any such inference.
Additionally, the IRS disagreed with the third outcome measure, stating the outcome measure
was based on an incorrect calculation—that 318,017 should be 311,579 based on its calculation
of (110/547) x 1,549,397. However, the IRS’ calculation does not incorporate the weighting of
the strata. The 318,017 taxpayers were calculated using 5 strata, and the errors were based on
each stratum and then totaled. See Appendix IV for details.
Concerning Recommendation 4, the IRS stated that tax returns submitted with a duplicate
secondary/dependent ITIN are subject to compliance review after the return is processed and
corrected as necessary, similar to duplicate Social Security Numbers. However, this is not a
100 percent review and only a small number of ITIN tax returns are subject to audit and would
be corrected. We believe controls should be developed during processing, before the tax refunds
are issued. This is comparable to how the IRS ensures dependents are not claimed on more than
one tax return. During the processing of electronic tax returns, the IRS will, with some
exceptions, reject the second tax return submitted that used a duplicate Social Security Number.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services), at (202) 622-5916.




                                                                                                 5
                                Individual Taxpayer Identification Numbers Are
                          Being Issued Without Sufficient Supporting Documentation




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Individual Taxpayer Identification Numbers Were Issued
          Without Sufficient Supporting Documentation ............................................Page 5
                    Recommendations 1 through 3:.........................................Page 14

          The Same Individual Taxpayer Identification Numbers Are Being
          Used by More Than One Taxpayer on Multiple Tax Returns ......................Page 14
                    Recommendation 4:........................................................Page 16

          The Real-Time System Contains Inaccurate Data
          and Is Insufficient to Oversee the Program...................................................Page 16
                    Recommendations 5 and 6: ..............................................Page 18


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 19
          Appendix II – Major Contributors to This Report ........................................Page 22
          Appendix III – Report Distribution List .......................................................Page 23
          Appendix IV – Outcome Measures...............................................................Page 24
          Appendix V – Acceptable Documents When Applying
          for an Individual Taxpayer Identification Number ......................................Page 28
          Appendix VI – Errors Identified in Application Packages
          Categorized by Sample .................................................................................Page 29
          Appendix VII - Rules for Claiming the Child Tax Credit and
          the Additional Child Tax Credit ...................................................................Page 30
          Appendix VIII – Management’s Response to the Draft Report ...................Page 31
                        Individual Taxpayer Identification Numbers Are
                  Being Issued Without Sufficient Supporting Documentation




                                Abbreviations

e-file(d), e-filing      Electronically file(d); electronic filing
IRS                      Internal Revenue Service
ITIN                     Individual Taxpayer Identification Number
U.S.                     United States
                         Individual Taxpayer Identification Numbers Are
                   Being Issued Without Sufficient Supporting Documentation




                                       Background

The Individual Taxpayer Identification Number (ITIN) was created to provide individuals who
are not eligible to obtain a Social Security Number with an identification number for tax
purposes. The Internal Revenue Service (IRS) issues ITINs to help individuals comply with
Federal tax laws and provide a means to efficiently process and account for tax returns. Only an
individual who has a valid filing requirement or is filing a tax return to claim a refund of
over-withheld tax is eligible to receive an ITIN. An ITIN is issued regardless of an individual’s
immigration status. The issuance of an ITIN does not:
   • Change an individual’s immigration status.
   • Entitle the individual to Social Security benefits.
   • Entitle the individual to work in the United States (U.S.).
   • Entitle the individual to the Earned Income Tax Credit.
In general, the Social Security Administration limits its assignment of Social Security Numbers
to individuals who are U.S. citizens and alien individuals legally admitted to the U.S. for
permanent residence or under other immigration
categories authorizing U.S. employment.                           Only U.S. citizens and
Consequently, individuals who do not meet these                  alien individuals legally
                                                                 admitted to the U.S. for
criteria cannot obtain a Social Security Number.                permanent residence are
Individuals who are unable to obtain Social Security         allowed to obtain Social Security
                                                                         Numbers.
Numbers but have tax return filing requirements can
be either resident or nonresident aliens. The ITIN is
available to individuals who are required to have a
taxpayer identification number for tax purposes but do
not have and are not eligible to obtain a Social
Security Number. The distinction between a resident
and nonresident alien is important because each is
taxed differently. Resident aliens must follow the same tax laws as U.S. citizens. Specifically,
income from all sources, both within and outside the U.S., is taxed and the same tax forms used
by U.S. citizens are required to be filed. Nonresident aliens must file a tax return only if they are
engaged in a trade or business in the U.S., or if they have any other U.S. sources of income on
which the tax was not fully paid by the amount withheld.
The ITINs are not valid identification outside the tax system. The IRS began processing
Applications for IRS Individual Taxpayer Identification Number (Form W-7) in July 1996 and


                                                                                              Page 1
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation



estimates that, as of December 2008, it has issued more than 14 million ITINs. Individuals apply
for an ITIN by completing a Form W-7 and using one of the following methods:
1. Submitting Form W-7 through an IRS-approved Acceptance Agent. An Acceptance
   Agent is a person (an individual or an entity) who, pursuant to a written agreement with the
   IRS, is authorized to assist alien individuals and other foreign persons (who are ineligible to
   receive a Social Security Number) in obtaining an ITIN from the IRS. The Acceptance
   Agent reviews the necessary documents and forwards the completed Form W-7 and
   supporting documents to the IRS.
2. Submitting Form W-7 through an IRS-approved Certified Acceptance Agent. A
   Certified Acceptance Agent is authorized to certify whether the documented proof is
   adequate and is not required to send the supporting documentation to the IRS. The Certified
   Acceptance Agent reviews the applicant’s documentation, completes a certificate of
   accuracy, and forwards the certificate and Form W-7 to the IRS for processing. The
   Certified Acceptance Agent is required to keep copies of the documents for 3 years.
3. Applying directly to the IRS.
    •   An individual can mail the Form W-7 with documentation
        to substantiate information reported on the Form W-7 and
        a completed tax return to the IRS Austin Campus 1 ITIN
        unit for processing.
    •   An individual can submit the Form W-7 personally to an
        IRS local office called a Taxpayer Assistance Center 2 with
        a completed tax return and documentation to substantiate                  The Taxpayer Assistance
        information reported on the Form W-7. Center employees                    Centers offer face-to-face
        review the Form W-7 for completeness and accuracy and                     assistance.
        practice due diligence when verifying the supporting                      The IRS provides service to
        documents. They also determine the need for a tax return                  millions of taxpayers yearly.
        or proof of prior filing with open ITIN issues. Center                    Taxpayers have the option of
                                                                                  obtaining personal,
        employees send the Form W-7 and copies of the                             face-to-face tax assistance
        supporting documents to the Austin Campus ITIN unit for                   at 401 Taxpayer Assistance
        processing. 3                                                             Centers nationwide. The
                                                                                  IRS suggests taxpayers visit
                                                                                  the Centers when they feel
                                                                                  more comfortable talking
                                                                                  with someone in person.

1
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  An IRS office with employees who answer questions, provide assistance, and resolve account-related issues for
taxpayers face to face.
3
  Supporting documents are not forwarded for individuals under 18 years of age.
                                                                                                          Page 2
                                 Individual Taxpayer Identification Numbers Are
                           Being Issued Without Sufficient Supporting Documentation



The IRS Austin, Texas, Campus processes all applications submitted by Agents and submitted
directly to the IRS. Figure 1 shows the source of ITIN applications from January 1 through
November 21, 2008.
                     Figure 1: Source of ITIN Applications Processed From
                                January 1 – November 21, 2008

                                                           Volume of ITIN
                                                                                      Percentage
                                                        Applications by Source

                   Direct Mail                                  1,167,136                 75%

                   Certified Acceptance Agent                     362,870                 23%
                   Acceptance Agent                                 12,394                .8%
                   Agent with No Designation                         6,997                .5%
                   Total                                        1,549,397                100%*
                 Source: Data from the ITIN Real-Time System. *Does not total 100 percent due to rounding.

All Form W-7 applicants must meet certain documentation requirements. 4 An applicant can
submit an original passport or a properly notarized or certified copy of a valid passport. If the
applicant submits either of these, he or she does not need to submit any other documents. If an
applicant does not have an original or certified copy of a passport, he or she must provide a
combination of current documents (at least two or more) that show a photograph and name
supporting the claim of identity and foreign status. With the exception of children less than
14 years of age (less then 18 years of age if a student), at least 1 document must contain a recent
photograph. If an individual is requesting an ITIN as a dependent, unless a passport is
submitted, documentation to prove foreign status and identity should include a birth certificate.
There has been a significant increase in the use of ITINs since the IRS began issuing them in
Tax Year 1996. Figure 2 shows a 247 percent increase in the number of individual income tax
returns filed using ITINs and reporting wages from Tax Years 2001 to 2008.




4
    Appendix V contains a list of acceptable documents that can be used when applying for an ITIN.
                                                                                                         Page 3
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation



                              Figure 2: Growth of Tax Returns Filed
                                Using ITINs and Reporting Wages

                                                           Tax Year        Tax Year      Percentage
                                                             2001            2008         Change
           Paper-Filed Tax Returns                          444,000          813,000           83%
           Electronically filed (e-filed) Tax Returns        86,000        1,028,000       1,095%
           Total Individual Income Tax Returns              530,000        1,841,000         247%
         Sources: Data for Tax Year 2001 were obtained from a prior Treasury Inspector General for
         Tax Administration report. 5 Data for Tax Year 2008 were obtained from analysis of the IRS
         Returns Transaction File as of June 18, 2009. 6 Data were rounded to the nearest thousand.

Tax returns filed with ITINs were not always allowed to be e-filed. However, if the ITIN was
shown on the Wage and Tax Statement (Form W-2), the tax return could be e-filed. Due to
programming changes, ITIN returns can now be e-filed.
This review was performed at the Wage and Investment Division Program Office in
Atlanta, Georgia, and at the Austin Submission Processing Center in Austin, Texas. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




5
  The Internal Revenue Service’s Individual Taxpayer Identification Number Creates Significant Challenges for Tax
Administration (Reference Number 2004-30-023, dated January 8, 2004).
6
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
                                                                                                          Page 4
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation




                                     Results of Review

Individual Taxpayer Identification Numbers Were Issued Without
Sufficient Supporting Documentation
A statistical sample of 658 Forms W-7 selected from 1.5 million application packages (cases)
submitted from January 1 through November 21, 2008, showed 510 cases (78 percent) contained
errors. 7 Fifty-four (8 percent) of 658 cases contained errors that would not have prevented the
issuance of an ITIN, for example, names on some supporting documents were inconsistent with
those of the Forms W-7 or the Forms W-7 were not dated. However, 456 (69 percent) of 658 of
the cases contained significant errors and/or raised concerns that, without follow up or
resolution, should have prevented the issuance of ITINs.
As shown in Figure 3, the highest error rate (87 percent) was in applications submitted through
Certified Acceptance Agents. 8 This includes instances in which the Agents did not provide the
documents required to support the Forms W-7 submitted by them to the TIGTA. However, there
was also a significant error rate (35 percent) in application packages submitted to the IRS.
               Figure 3: Errors Identified in Application Packages Sampled
                           Based on the Source of the Package
                                                              Certified              Certified
                                   Directly Mailed or       Acceptance             Acceptance
                                    Submitted to an       Agent Residing in       Agent Residing
                                       IRS Office             the U.S.            Outside the U.S.        Totals
Case Errors                           43        35%         224         64%         141        75%         408
Documents Not Provided               NA          NA           81        23%          21        11%         102
Total Errors                         43         35%          305        88%         162        87%         510
No Errors                            80         65%           43        12%          25        13%         148
Total Application Packages           123        100%         348       100%         187       100%         658
Source: Our analysis of Forms W-7 submitted and processed during the period January 1 through
November 21, 2008. NA=Not applicable. Due to rounding the total percentages may not equal 100 percent.


7
  The sample included cases from 2 populations: 123 applications mailed directly or submitted to an IRS office and
535 applications submitted through Certified Acceptance Agents. A larger sample and a higher expected error rate
was used in the selection of Agents to consider the Agents that may not provide the requested documents. Appendix
I provides details of our sampling methodology. Appendix VI provides a breakdown of the specific errors found in
the cases.
8
  A sample of Acceptance Agents was selected from the ITIN data but after review the applications were
determined to have been submitted by Certified Acceptance Agents and not Acceptance Agents.
                                                                                                          Page 5
                               Individual Taxpayer Identification Numbers Are
                         Being Issued Without Sufficient Supporting Documentation



Errors identified in 456 cases that might have prevented the issuance of ITINs included the
following: 9
       •   443 (97 percent) supporting identification documents (e.g., passports, driver licenses,
           birth certificates, certificates of accuracy, and partnership agreements) were missing or
           were illegible. This includes 102 cases in which Certified Acceptance Agents did not
           provide documentation.
       •   106 (23 percent) signatures were missing from the Forms W-7.
       •   22 (5 percent) birth dates on identification documents were inconsistent with the birth
           dates on the Forms W-7.
Figure 4 provides a breakdown of the income, credits, and taxes for the 708 tax returns 10
associated with the cases identified as having errors.
                  Figure 4: Income, Credits, and Taxes for Cases With Errors

                                                                        Certified                  Certified
                                         Directly Mailed or         Acceptance Agent           Acceptance Agent
                                          Submitted to an               Residing               Residing Outside
                                             IRS Office                in the U.S.                 the U.S.

    Adjusted Gross Income                    $1,595,607                $11,092,599                  $2,307,158

    Taxable Income                              $322,706                 $1,569,459                 $1,934,879

    Child Tax Credit                             $20,263                   $106,057                      $1,200

    Additional Child Tax Credit                  $60,810                   $586,838                          $0

    Tax Withheld from Wages                      $59,292                   $369,198                   $373,325
    Refunds                               61 ($109,688)             494 ($892,197)               73 ($103,102)
    Taxes Owed                                 6 ($5,133)              15 ($17,337)                  1 ($5,053)
    No Additional Taxes Owed                             ***1***                  13                         44
Sources: Data from the ITIN Real-Time System, the ITIN Program’s management information system, and from the
IRS Returns Transaction File for tax returns filed using ITINs and processed in Calendar Years 2008 and 2009.




9
    Totals will not add to 456 and percentages will not total to 100 percent because most cases had more than 1 error.
10
     Some ITIN cases had multiple tax returns filed in Calendar Years 2008 and 2009.
                                                                                                               Page 6
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation



Eighty-seven percent of the sample of application packages submitted by
Certified Acceptance Agents contained errors
A Certified Acceptance Agent is authorized under an agreement with the IRS to submit a
Form W-7 to the IRS on behalf of an ITIN applicant without furnishing supporting documentary
evidence. Instead, in the certificates of accuracy, Agents certify to the IRS that they have
reviewed the appropriate documentation evidencing the ITIN applicant’s identity and alien
status, and that they are maintaining a record of such documentation. In addition, Agents must
certify that, to the best of their knowledge and belief, the documentation is authentic, complete,
and accurate. As part of the certification, Agents must describe the documentation upon which
they are relying. The certification is not binding on the IRS, and, in appropriate cases, the IRS
may request to see appropriate documentation before issuing an ITIN.
In addition, Certified Acceptance Agents agree to maintain a record of the documentation
obtained and reviewed pursuant to the obligations set forth
in the agreement. They are required to maintain all
documentation submitted with respect to an ITIN                  Certified Acceptance Agents
applicant for 3 years.                                            submit only Forms W-7 and
                                                                           certificates of accuracy. They are
IRS employees process, but do not review, documents          not required to submit supporting
supporting the applications submitted by Certified             documents, but must maintain
                                                             them for 3 years and submit them
Acceptance Agents. They input the information from the
                                                                  to the IRS upon request.
Forms W-7 into the ITIN management information
system, the Real-Time System. If all requirements are
met, the ITIN is assigned systemically by the Real-Time System.
We requested copies of 535 application packages (Forms W-7, tax returns, and supporting
documents) from Certified Acceptance Agents. From the IRS, we obtained the documents the
Certified Acceptance Agents submitted to the IRS on behalf of the applicants. Eighty-seven
percent (467 of 535) of the sample of application packages contained errors, for example: 11
     •   322 cases (69 percent) did not contain the documents required to issue an ITIN.
         Examples of required documents that were not provided include complete or legible
         photo identifications, school records, medical records, birth certificates, certificates of
         accuracy, and partnership agreements.
     •   159 Forms W-7 (34 percent) did not agree with the original Forms W-7 that were sent to
         the IRS. In some cases, it appeared the Agents had completed new forms. This could
         have happened because the Agents did not retain the original documents. Eleven
         (7 percent) of the 159 Forms W-7 were signed and dated prior to the Forms W-7 issue
         date.

11
  The examples will not balance to the total errors because all errors were not included and most cases had more
than one error.
                                                                                                            Page 7
                         Individual Taxpayer Identification Numbers Are
                   Being Issued Without Sufficient Supporting Documentation



   •   109 cases (23 percent) did not contain copies of partnership agreements. ITIN applicants
       residing in a foreign country who are partners in U.S. businesses are subject to
       information reporting and Federal tax withholding requirements. Foreign partnerships
       may conduct business in the U.S., and invest and own U.S. assets that generate income;
       therefore, they must obtain ITINs to report income. Partnership agreements are required
       when applying for ITINs to ensure the partnership exists and the applicant is a member of
       a foreign partnership or a U.S. partnership with 10 or more partners. Documentation
       includes the partnership name, Employee Identification Number, and a statement that the
       applicant is a member of the partnership.
   •   102 (22 percent) Forms W-7 and supporting documents were not provided to us when we
       requested them from the Certified Acceptance Agents. They did not comply with our
       requests for copies of the application packages and did not provide any documents.
   •   84 cases (18 percent) did not contain the required certificates of accuracy or the
       certificates were missing required information and/or signatures.
The IRS relies on Certified Acceptance Agents to ensure applicants meet all requirements
The IRS accepts Forms W-7 and supporting documents submitted by Certified Acceptance
Agents without reviewing or evaluating them. However, a review of the application packages in
our sample found instances where the Forms W-7 and a certificate of accuracy were accepted
with questionable information. For example,
   •   ********************************1*************************************
       **********************************************************************
       **********************************************************************
       **********************************************************************.
   •   ******************************1***************************************
       **********************************************************************
       ***.
The IRS stated that there are no internal guidelines requiring that the certificate of accuracy and
the information on the Form W-7 be reviewed for accuracy. However, the certificate of accuracy
is not binding on the IRS, and the IRS may request to see appropriate documentation before
issuing an ITIN.
In another instance, *****************************1*******************************
*****************************************************************************
*****************************************************************************
****************************************************************************
****************************************************************************
*********************************************************************.

                                                                                            Page 8
                           Individual Taxpayer Identification Numbers Are
                     Being Issued Without Sufficient Supporting Documentation



The IRS does not have a Certified Acceptance Agent compliance review process
Since Fiscal Year 2003, the Treasury Inspector General for Tax Administration has reported that
the IRS has not performed any compliance reviews or monitoring visits to ensure that Agents are
complying with all laws and regulations when submitting Forms W-7. 12 In response to the report
issued in June 2009, the ITIN Program Office stated that it is currently working with the Small
Business/Self-Employed Division Examination Policy function to develop a compliance review
process.
Considering the error rate of application packages submitted by Certified Acceptance Agents in
this review, the risk is high that without an active and aggressive compliance program ITINs are
being issued without the proper supporting documents. The IRS needs to ensure that it
implements a comprehensive compliance program or reconsider the feasibility of the Certified
Acceptance Agent Program.

Thirty-five percent of the sample of application packages submitted directly to the
IRS contained errors
IRS employees review and process applications submitted directly to the IRS. Employees
review the Form W-7 and the supporting documentation and contact the individual, via mail,
notifying them of the ITIN or requesting additional information required to substantiate the
Form W-7.
Thirty-five percent (43 of 123) of the application packages sampled that were submitted directly
to the IRS by mail or through Taxpayer Assistance Centers contained errors. The errors ranged
from missing and illegible documents to inconsistencies between the Forms W-7 and the
supporting documents. This happened for many reasons.
     •   The documents are numerous and complex and in some instances unique to each
         taxpayer.
     •   Employees are not experts in determining whether documents are legitimate or whether
         signatures are valid.
     •   Employees process a large volume of Forms W-7 in a short time period. The majority of
         ITIN applications are submitted during the filing season 13 so individuals can timely file
         their tax returns. However, this is the busiest time for the IRS. In addition, the IRS hires
         seasonal employees to assist with Forms W-7 peak processing; therefore, employees with
         less experience process these Forms.

12
   Management Oversight of the Acceptance Agent Program Is Needed to Assure that Individual Taxpayer
Identification Numbers Are Properly Issued (Reference Number 2003-30-020, dated November 6, 2002) and
Inadequate Management Information Has Adversely Affected the Acceptance Agent Program (Reference
Number 2009-40-087, dated June 19, 2009).
13
   The period from January through mid-April when most individual income tax returns are filed.
                                                                                                    Page 9
                         Individual Taxpayer Identification Numbers Are
                   Being Issued Without Sufficient Supporting Documentation



Employees have also expressed concerns that they are required to process a Form W-7 for an
individual when it appears the wage earner is using another individual’s Social Security Number
to work. Taxpayers applying for an ITIN do not qualify for a Social Security Number. The
Form W-2 attached to the tax return and application contains a Social Security Number.
The IRS attempted to mitigate some of the challenges by reducing the number of acceptable
documents from 40 to 13. The IRS provided necessary training to identify legitimate documents,
but does not require employees to be experts in determining whether documents contain valid
signatures. Also, the IRS stated it has a good returning base of seasonal employees and in
preparation for the 2009 Filing Season increased the classroom training time.

Supporting documents are complex and guidelines are inconsistent
Although only 13 types of documents are acceptable to support the Form W-7 and issue an ITIN,
these documents may not be in English, vary according to the country in which they were issued,
and, particularly for medical and school records, are unique to the individual. Medical and
school records are most often used to verify that children meet the requirements. Of
658 applications sampled, 213 (32 percent) applications were for children.
These IRS employees are not auditors and are required to ensure only the validity of the
supporting documents, not validate all the information used to support the Form W-7.
Guidelines do not require that they validate age, even though date of birth is a required field.
Neither are they required to validate the date of entry into the U.S. A review of the sample of
application packages showed the date of entry sometimes conflicts with school records, which
shows applicants were attending school in foreign countries at the time they entered the U.S.
According to an IRS official, it is possible that the dependent attended school in a foreign
country but returns to the U.S. during school breaks.
Inconsistent guidelines create confusion for taxpayers and Agents in attempting to comply with
the proper preparation of a Form W-7 and determining the identification documents needed to
support the issuance of an ITIN, for example:
   •   The Form W-7 instructions, Understanding Your IRS - Individual Taxpayer
       Identification Number ITIN (Publication 1915), and a notice sent from the IRS to the
       taxpayer requesting additional information to support the Form W-7 application state that
       if an applicant is 14 years of age or older, the applicant can sign or appoint an authorized
       agent, including the parent, to sign. The authorized agent or parent must attach Power of
       Attorney and Declaration of Representative (Form 2848). However, IRS internal
       guidelines do not require a Form 2848 for a parent who is signing for a child.
   •   The Publication 1915 provides information used for completing the Form W-7 and
       instructs the applicant to use the most current Form W-7 or it will be rejected. However,
       the actual Form W-7 instructions only state to use Form W-7 to apply for an ITIN. In
       addition, IRS internal guidelines allow tax examiners to accept older versions.

                                                                                           Page 10
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation



The IRS has acknowledged these two discrepancies and is taking actions to revise
Publication 1915 and Form W-7 instructions to ensure consistency.
In another instance, Publication 1915 and instructions for completing Form W-7 instructs the
applicant to enter the date of entry to the U.S. However, IRS internal guidelines state:
        A date of entry is not required if W-7 reason box d [Dependent of U.S. citizen/resident alien] is
        checked and applicant is a resident of Canada, India, or Mexico or when box e [Spouse of U.S.
        citizen/resident alien] is checked and Form 1040 is filed either as married filing separately of (sic)
        married filing jointly with a spouse who is a U.S. citizen or resident and the NRA spouse applicant
        is both listed and claimed as an exemption on the return.

The Government Accountability Office Standards for Internal Control in the Federal
Government 14 requires that the agency assess the risks it faces from both external and internal
sources. The agency must establish clear, consistent objectives and should consider all
significant interactions between the entity and other parties to identify risks. Guidelines need to
be clear and consistent to reduce risks inherent to the ITIN Program and ensure ITINs are issued
only to appropriate individuals.

The volume of ITINs is growing, increasing the risk that fraudulent tax returns
using ITINs could be submitted
Total ITIN tax returns have grown 247 percent from Tax Year 2001 to 2008. Many of these tax
returns claim dependency exemptions and the Child Tax Credit and Additional Child Tax Credit.
To qualify for these Credits, a child must meet certain tests. The residency test is of particular
importance for children who have an ITIN. The only way a child with an ITIN can qualify for
these Credits is to be a resident of the U.S. 15
The maximum amount that can be claimed for the Child Tax Credit is $1,000 for each qualifying
child. The Additional Child Tax Credit is a refundable tax credit and is for certain individuals
who get less than the full amount of the Child Tax Credit. The Additional Child Tax Credit
provides the taxpayer with a refund when no tax is owed. The IRS provides this example on
IRS.gov:
        The taxpayers have two qualifying children, income of $86,000, and a tax liability of $500.
        Because their tax liability is less than the initial child tax credit ($2,000) they may be able to take
        the refundable Additional Child Tax Credit of $1,500 ($2,000-$500).

Employees processing Forms W-7 are not tax auditors and cannot determine whether a
dependent qualifies to be claimed on the tax return, therefore allowing the taxpayer to receive a
dependency exemption and possibly the Child Tax Credit and Additional Child Tax Credit.


14
  Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1, dated November 1999).
15
  Internal Revenue Code Section 24. See Appendix VII for a list of the requirements to claim the Child Tax Credit
and Additional Child Tax Credit.
                                                                                                         Page 11
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation



Since Fiscal Year 2005, the Program Office has been monitoring the usage of the Credits on tax
returns submitted with Forms W-7. The Program
Office, in conjunction with the IRS Examination             During Fiscal Year 2007, the IRS
function, initiated a review of approximately          Examination function audited and closed
93,000 of these tax returns. The Examination           3,161 cases, changing almost 50 percent
function subsequently initiated audits and has         of these cases and assessing an average
                                                           of $2,156 in additional tax per case.
included this initiative in its strategic plan. During
Fiscal Year 2007, the Examination function
audited and closed 3,161 cases, changing almost
50 percent of these cases and assessing an average of $2,156 in additional tax per case.
The Program Office is also working with the IRS Criminal Investigation Division on several
ITIN tax schemes. Calendar Year 2008 schemes being worked by the Criminal Investigation
Division involve 14,636 ITIN tax returns and $42 million in refunds claimed. More than
1,000 (7 percent) of the 14,636 ITIN tax returns involved in schemes had ITINs issued with the
assistance of Agents. These schemes involved $3.1 million in refunds. ************1****************
****************************************************************************
*******.
In March 2009, we reported that ITIN filers are receiving billions of dollars in Child Tax Credits
and Additional Child Tax Credits intended for working families although these individuals are
not authorized to work in the U.S. 16 Figure 5 provides a breakdown of the characteristics and
projections for our statistical sample of ITIN applications for 1,171,355 individual tax returns
using ITINs that were assigned January 1 through November 21, 2008. There is a potential that
these tax returns could result in $412,454,748 in refunds and that over 5 calendar years
$2,062,273,740 in revenue could be protected.




16
  Actions Are Needed to Ensure Proper Use of Individual Taxpayer Identification Numbers and to Verify or Limit
Refundable Credit Claims (Reference Number 2009-40-057, dated March 31, 2009).
                                                                                                       Page 12
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation



          Figure 5: Projections of Income, Credits, and Taxes of Tax Returns
           Filed Using ITINs Assigned January 1 through November 21, 2008

                                                                                               Certified
                                    Directly Mailed or         Certified Acceptance
                                                                                           Acceptance Agent
                                   Submitted to an IRS           Agent Residing
                                                                                           Residing Outside
                                          Office                     in the U.S.
                                                                                               the U.S.

Adjusted Gross Income                 $15,140,572,126              $10,899,147,898             $258,340,007

Taxable Income                         $3,062,128,374               $1,542,088,176             $216,654,713

Child Tax Credit                         $192,273,795                 $104,207,402                   $134,368

Additional Child Tax Credit              $577,024,922                 $576,603,748                         $0

Tax Withheld From Wages                  $562,616,485                  $22,214,474                 $41,802,418

Refunds Due                            $1,040,819,623                 $876,637,392                 $11,544,667

Balance Due                                $48,706,578                 $17,034,649                   $565,801
Total Refunds Without
Child Tax Credit and                     $222,818,598                 $178,791,691                 $10,844,458
Additional Child Tax Credit
No Additional Taxes Owed
                                                  9,489                      12,773                      4,927
(Tax Returns)
Source: Analysis of tax returns filed using ITINs and processed in Calendar Years 2008 and 2009.

In a prior report issued March 31, 2009, the Treasury Inspector General for Tax Administration
recommended that legislation is needed to clarify whether or not refundable tax credits such as
the Additional Child Tax Credit may be paid to filers without a Social Security Number and, if
these credits may not be paid, to provide IRS math error authority to disallow associated claims
for the credits. 17 The IRS agreed and will discuss with the Office of Tax Policy, Department of
the Treasury, the merits of an administration proposal to amend the Internal Revenue Code to
limit eligibility for the Child Tax Credit and Additional Child Tax Credit to individuals who
have a Social Security Number issued by the Social Security Administration rather than a
number issued to an alien not authorized to work in the U.S.




17
  Actions Are Needed to Ensure Proper Use of Individual Taxpayer Identification Numbers and to Verify or Limit
Refundable Credit Claims (Reference Number 2009-40-057, dated March 31, 2009).
                                                                                                         Page 13
                         Individual Taxpayer Identification Numbers Are
                   Being Issued Without Sufficient Supporting Documentation



Recommendations
The Commissioner, Wage and Investment Division, should revise:
Recommendation 1: Guidelines related to processing applications submitted by Certified
Acceptance Agents to ensure that the Forms W-7 match the information on the certificates of
accuracy before issuing ITINs, and that any supporting documents submitted with the certificates
of accuracy are reviewed with the same due diligence as required for Forms W-7 and supporting
documents submitted directly to the IRS by individual applicants.
       Management’s Response: The IRS agreed with this recommendation and has taken
       steps to revise Form W-7 instructions, Acceptance Agents Guide for Individual Taxpayer
       Identification Number (Publication 4520), and internal guidelines to ensure consistency
       in these areas.
Recommendation 2: Guidelines related to processing applications submitted directly to the
IRS to ensure that all information on the Forms W-7 is validated and consistent with supporting
documentation. For example, employees should validate the gender, age, and date of entry.
       Management’s Response: The IRS agreed with this recommendation and will
       update guidance to ensure the information on the Form W-7, required to verify the
       applicant’s identity, is validated and consistent with what is shown on supporting
       documentation.
Recommendation 3: Guidelines to ensure that the instructions for completing the Form W-7
and internal guidelines are consistent by clarifying who is required to complete a power of
attorney, clarifying that prior versions of Form W-7 may be acceptable, and requiring that
employees verify qualified applicants provide an entry date to the U.S.
       Management’s Response: The IRS agreed with this recommendation and has taken
       steps to revise Form W-7 instructions, Publications 1915 and 4520, and internal
       guidelines to ensure consistency in these areas.

The Same Individual Taxpayer Identification Numbers Are Being Used
by More Than One Taxpayer on Multiple Tax Returns
As with Social Security Numbers, ITINs are specific to individuals and should be issued to and
used by only one individual. However, there are no controls when tax returns are filed to prevent
an ITIN from being used by more than one taxpayer on multiple tax returns. The IRS has a
compliance control after the tax return is processed and the refund is issued to determine which
taxpayer should be allowed to claim a dependent.
More than 60,000 ITINs were assigned and used on multiple tax returns processed in Calendar
Year 2008. Multiple ITINs were used on 121,601 tax returns – 76,998 (63 percent) ITINs were

                                                                                         Page 14
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation



used for dependents, 31,287 (26 percent) were used for secondary taxpayers (spouses), and
13,316 (11 percent) were used for primary taxpayers. 18 Seventy-one percent (86,736) were
submitted using a paper tax return while 29 percent (34,865) were e-filed.
**************************************1***********************************
**************************************************************************
**************************************************************************
*************************************. Figure 6 provides total refunds, balance dues,
and no taxes owed for the 60,333 tax returns where the same ITINs were used on multiple tax
returns. A total of 72,333 multiple ITINs used on 121,601 multiple tax returns allowed
$175,815,700 in refunds for Calendar Year 2008. Because this could be a recurring issue, a
determination was made that over 5 calendar years, revenue could be increased by $879,078,500.
                        Figure 6: 2007 Tax Returns With Multiple ITINS
                                          Number of           Number of Tax
                                                                                       Amount
                                           ITINs 19           Returns Filed
                Refunds                       55,610                102,303          $202,271,388
                Balance Due                   12,789                  14,914          $26,455,688
                No Taxes Owed                   3,934                  4,384              -----
               Sources: Data from the ITIN Real-Time System and from the IRS Returns Transaction
               File for tax returns filed using ITINs and processed in Calendar Year 2008.

There has been a reduction in the number of multiple ITINs issued to the same
taxpayer
A recent IRS study 20 identified that 4 percent of individuals applying for ITINs already had an
ITIN assigned to them and that 30 percent of these individuals were assigned multiple ITINs.
The study further estimated that approximately $60 million per year in erroneous refunds were
issued for ITIN cases routed to the Accounts Management function. ********1***********
***************************************************************************
*************************************************. The IRS study reported that the



18
   The primary taxpayer is the first name and Social Security Number reported on an individual tax return. If a joint
return is filed, a secondary taxpayer is the second name and Social Security Number (e.g., spouse, reported on the
return). A dependent is a person, other than a primary or secondary taxpayer, for whom you can claim an exemption
and is reflected in the Exemption section of a tax return.
19
   The same ITIN could have been used on more than 1 type of tax return; refunds, balance due, or no taxes owed
and will not total to 60,333 ITINs.
20
   IRS Lean Six Sigma study entitled, Individual Taxpayer Identification Number, Control Tollgate, dated
February 21, 2008. The data contained in the study were collected in October and November 2007 and were not
statistically valid for the entire applicant pool.
                                                                                                           Page 15
                         Individual Taxpayer Identification Numbers Are
                   Being Issued Without Sufficient Supporting Documentation



process used to ensure that multiple ITINs are not assigned to the same individual was
inefficient.
The IRS is attempting to reduce duplicate ITINs by streamlining its prescreening process.
Starting January 2008, employees check for duplicate status before inputting the ITIN
application data and flag potential duplicates for further research. The IRS cites that the new
procedures have reduced the percentage of individuals being assigned a duplicate ITIN from
30 percent to 6 percent. Using the same prescreening process the employees used, the IRS
conducted a review of duplicates during the period of June 3 through 12, 2009. The results
showed the requests for duplicate ITINs were 671 (18 percent) of the 3,668 requests. However,
of the 671 ITINs, 3 percent were still missed during the prescreening process and duplicate
ITINs were issued. The IRS did not record the ITINs for the 3 percent that resulted in
duplicates; therefore, it cannot be determined which ITINs needed to be resolved.

Recommendation
Recommendation 4: The Commissioner, Wage and Investment Division, should develop
controls to prevent ITINs from being used on multiple tax returns, including ITINs used for
secondary taxpayers and dependents.
       Management’s Response: The IRS disagreed with this recommendation stating that
       tax returns submitted with a duplicate secondary/dependent ITIN are subject to
       compliance review after the return is processed and corrected as necessary, similar to
       duplicate Social Security Number use.
       Office of Audit Comment: The compliance review is not a 100 percent review and
       only a small number of ITIN tax returns are subject to audit and would be corrected. We
       believe controls should be developed during processing and before the tax refunds are
       issued. This is comparable to how the IRS ensures dependents are not claimed on more
       than one tax return. During the processing of electronic tax returns, the IRS will, with
       some exceptions, reject the second tax return submitted that used a duplicate Social
       Security Number.

The Real-Time System Contains Inaccurate Data and Is Insufficient to
Oversee the Program
The IRS states that the Real-Time System provides a one-stop service for processing Forms W-7
and issuing ITINs. The System processes Forms W-7 in real-time and assigns the ITIN or
creates reject or suspense Forms W-7 automatically. Nevertheless, the information does not
accurately reflect what type of agent submitted the Forms W-7 and does not accurately reflect
the information captured from the Forms W-7.


                                                                                         Page 16
                             Individual Taxpayer Identification Numbers Are
                       Being Issued Without Sufficient Supporting Documentation



Research on the Real-Time System for 547 cases in our statistical sample found that 270 records
(49 percent) contained inaccurate information relating to what type of Agent submitted the
application.
   •      136 Forms W-7 (25 percent) were listed on the Real-Time System as submitted by
          Acceptance Agents when they were actually submitted by Certified Acceptance Agents.
   •      134 Forms W-7 (24 percent) were listed on the Real-Time System with no designation of
          the type of agent but were actually submitted by Certified Acceptance Agents.
The IRS does not know the volume of Forms W-7 that are submitted by Certified Acceptance
Agents and, if not corrected, approximately 200 Certified Acceptance Agents may not be
included in any compliance activity.
Information reflected on 110 (20 percent) of the 547 Forms W-7 was not transcribed correctly to
the Real-Time System. Transcription errors included incorrect identification documents, birth
dates, codes/reasons for submitting the Forms W-7, names, and/or addresses. Figure 7 provides
a breakdown of the number of transcription errors for the statistically valid samples. There is a
potential that 318,107 taxpayer ITIN Forms W-7 were incorrectly input into the IRS Real-Time
System (1,590,535 projected over 5 years).
                   Figure 7: Errors Identified on the Real-Time System

                                                                                   Certified
                                                    Directly        Certified
                                                                                  Acceptance
                                                   Mailed or      Acceptance
                 Acceptance       Blank                                             Agent
                                                   Submitted         Agent                           Total
                   Agent        Designation                                        Residing
                                                   to an IRS        Residing
                                                                                  Outside the
                                                    Office.        in the U.S.
                                                                                     U.S.
 Errors           24    18%       24     18%      28      23%     11     12%      23     37%         110
 No Errors       112    82%      110     82%      95      77%     80     88%      40     63%         437
 Totals          136 100%        134     100%     123    100%     91    100%      63    100%         547
Source: Our analysis of Forms W-7 submitted during the period January 1 through November 21, 2008.

The Forms W-7 submitted by the Certified Acceptance Agents are accepted without a review.
The certificates of accuracy are not matched to the Forms W-7 and, in other instances, the
Agents attach documents that do not match the Form W-7 information.
For example, ********************************1******************************
************************************************************************. **
***************************************************************************
****************************************************************************
****************************************************************************
********************************************. In both instances, the ITIN was issued.

                                                                                                     Page 17
                        Individual Taxpayer Identification Numbers Are
                  Being Issued Without Sufficient Supporting Documentation



The Government Accountability Office Standards for Internal Control in the Federal
Government states that relevant, reliable, and timely information is needed in order to achieve
program objectives. The IRS needs to improve its Real-Time System and its management
controls to effectively manage the ITIN Program. The IRS does not have sufficient management
information concerning the volume or type of Agents that submit ITIN applications to the IRS.
Additionally, the IRS does not validate and input all Form W-7 information. Without this
information, the IRS may not know where to focus resources or compliance reviews that are
being planned.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 5: Ensure the data on the Real-Time System are accurate and validate the
records that indicate an agent submitted the application to ensure that the ITIN Program has
accurate and reliable data to oversee the Program.
       Management’s Response: The IRS agreed with this recommendation and is taking
       corrective actions to update the Real-Time System. These actions are contingent on
       funding.
Recommendation 6: Develop procedures and internal controls to monitor the Real-Time
System to ensure information entered is accurate.
       Management’s Response: The IRS agreed with this recommendation and is taking
       corrective actions to update the Real-Time System with viable report capability which
       will allow the ITIN Program Office to appropriately monitor the Real-Time System to
       ensure the information entered is accurate. This action is contingent on funding.
       However, the IRS disagreed with our estimate in Appendix IV that 318,107 taxpayer
       ITIN Forms W-7 were incorrectly input into the IRS Real-Time System. The IRS stated
       the outcome measure was based on an incorrect calculation—that 318,017 should be
       311,579 based on its calculation of (110/547) x 1,549,397.
       Office of Audit Comment: The IRS’ calculation does not incorporate the weighting
       of the strata. The 318,017 taxpayers were calculated using 5 strata, and the errors were
       based on each stratum and then totaled. See Appendix IV for details.




                                                                                         Page 18
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether Applications for IRS Individual
Taxpayer Identification Number (Form W-7) were efficiently and effectively processed and
ITINs were appropriately issued. To accomplish the objective, we:
I.      Determined whether the Austin, Texas, Campus 1 is ensuring Forms W-7 are efficiently
        and effectively processed and ITINs appropriately issued.
        A. Randomly selected 658 cases listed on the Real-Time System using 3 statistically
           valid samples of Forms W-7 submitted to the IRS during the period January 1 through
           November 21, 2008. The Forms W-7 were mailed to us from the Federal Records
           Center for sample 1 and letters were mailed to Certified Acceptance Agents residing
           in the U.S. and to Certified Acceptance Agents residing outside the U.S. for samples
           2 and 3. We determined the accuracy of the Forms W-7 and the supporting
           documentation.
             1. Randomly selected a sample of 138 Forms W-7 from a population of 1,167,136
                that were identified on the Real-Time System as being directly mailed to an
                IRS office. Our sample size was selected based on a 10 percent error rate, a
                ±5 percent precision rate, and a 95 percent confidence level. The sample was
                originally 138 but 15 cases were dropped from the sample because documentation
                was not provided, which limited the sample to 123.
             2. Randomly selected a statistically valid sample of 349 Forms W-7 from a
                population of 341,931 that were identified on the Real-Time System as being
                submitted to the IRS by a domestic Certified Acceptance Agent. Our sample size
                was selected based on a 35 percent error rate, a ±5 percent precision rate, and a
                95 percent confidence level. One case was dropped from the sample limiting the
                sample to 348. We contacted the Certified Acceptance Agents to obtain copies of
                the Forms W-7, tax returns, and supporting documents. The 35 percent error
                rated was used based on the expected number of Agents that may not respond to
                our request for information.
             3. Randomly selected a statistically valid sample of 194 Forms W-7 from a
                population of 20,939 that were identified on the Real-Time System as being
                submitted to the IRS by a foreign Certified Acceptance Agent. Our sample size

1
 The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                        Page 19
                 Individual Taxpayer Identification Numbers Are
           Being Issued Without Sufficient Supporting Documentation




       was selected based on a 15 percent error rate, a ±5 percent precision rate, and a
       95 percent confidence level. Seven cases were dropped from this sample limiting
       the sample to 187. We contacted the Certified Acceptance Agents to obtain
       copies of the Forms W-7, tax returns, and supporting documents. The 15 percent
       expected error rate was used based on the expected number of Agents that may
       not respond to our request for information.
B. Randomly selected 547 cases listed on the Real-Time System using 5 statistically
   valid samples of Forms W-7 submitted to the IRS during the period January 1 through
   November 21, 2008. Case information was compared to the data entered on the
   Real-Time System. The random selections of samples were selected by using
   computer software and applying a random number indicator to select the samples.
   The Federal Records Center mailed the Forms W-7 to us.
   1. Randomly selected a sample of 138 Forms W-7 from a population of 1,167,136
      that were identified on the Real-Time System as being directly mailed to an IRS
      office. Our sample size was selected based on a 10 percent error rate, a
      ±5 percent precision rate, and a 95 percent confidence level. The sample was
      originally 138 but 15 cases were dropped from the sample limiting the sample
      to 123.
   2. Randomly selected a statistically valid sample of 94 Forms W-7 that were
      submitted to the IRS by a domestic Certified Acceptance Agent from a population
      of 341,931. Our sample size was selected based on a 10 percent error rate, a
      ±5 percent precision rate, and a 90 percent confidence level. The Forms W-7
      were mailed to us from the Federal Records Center and we selected the first cases
      received. Three cases were dropped from the sample limiting the sample to 91.
   3. Randomly selected a statistically valid sample of 66 Forms W-7 that were
      submitted to the IRS by a foreign Certified Acceptance Agent from a population
      of 20,939. Our sample size was selected based on a 7 percent error rate, a
      ±5 percent precision rate, and a 90 percent confidence level. Three cases were
      dropped from the sample limiting the sample to 63.
   4. Randomly selected a statistically valid sample of 137 Forms W-7 from a
      population of 12,394 that were identified on the Real-Time System as being
      submitted to the IRS by an Acceptance Agent. Our sample size was selected
      based on a 10 percent error rate, a ±5 percent precision rate, and a 95 percent
      confidence level. The Forms W-7 were mailed to us from the Federal Records
      Center and we selected the first cases received. Once received, we determined
      that Certified Acceptance Agents had submitted the Forms W-7. One Form W-7
      was not received limiting the sample to 136.

                                                                                Page 20
                             Individual Taxpayer Identification Numbers Are
                       Being Issued Without Sufficient Supporting Documentation



             5. Randomly selected a statistically valid sample of 136 Forms W-7 from a
                population of 6,997 with no designations on the Real-Time System. Our sample
                size was selected based on a 10 percent error rate, a ±5 percent precision rate, and
                a 95 percent confidence level. Two cases were not received and the sample was
                limited to 134.
         C. Selected two samples from the cases in Step I.B. to determine the accuracy of the
            Real-Time System. Case information was compared to the data entered on the
            Real-Time System. The Forms W-7 were mailed to us from the Federal Records
            Center. To select the samples we:
             1. Randomly selected a statistically valid sample of 137 Forms W-7 from a
                population of 12,394 that were identified on the Real-Time System as being
                submitted to the IRS by an Acceptance Agent. Our sample size was selected
                based on a 10 percent error rate, a ±5 percent precision rate, and a 95 percent
                confidence level. Additional research determined these were not submitted by
                Acceptance Agents, but were submitted by Certified Acceptance Agents. The
                requirements for the sample for Certified Acceptance Agents had already been
                met. One Form W-7 was not received limiting the sample to 136.
             2. Randomly selected a statistically valid sample of 136 Forms W-7 from a
                population of 6,997 with no designations on the Real-Time System. There was no
                designation reflected on the Real-Time System of whether a Certified Acceptance
                Agent or Acceptance Agent had submitted the application package. Our sample
                size was selected based on a 10 percent error rate, a ±5 percent precision rate, and
                a 95 percent confidence level. Review of the documents found the cases to be
                submitted by Certified Acceptance Agents. The requirements for the sample for
                Certified Acceptance Agents had already been met. Two cases were not received
                and the sample was limited to 134.
II.      Conducted computer analysis to identify from the Returns Transaction File 2 individual
         income tax returns processed in Calendar Years 2008 and 2009 that were filed reflecting
         a primary, secondary, and/or dependent with an ITIN. We assessed the reliability of the
         Returns Transaction File by performing run-to-run balancing and verifying a sample of
         all fields against the IRS Integrated Data Retrieval System. 3
III.     Determined whether the IRS has implemented controls to reduce the number of duplicate
         ITINs from being issued.


2
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 21
                        Individual Taxpayer Identification Numbers Are
                  Being Issued Without Sufficient Supporting Documentation



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Lena Dietles, Audit Manager
Roberta Fuller, Lead Auditor
Jean Bell, Senior Auditor
Kenneth Carlson, Senior Auditor
Tracy Harper, Senior Auditor
Patricia Jackson, Senior Auditor
Kathy Coote, Auditor
Jerry Douglas, Auditor
Mary Keyes, Auditor
Nelva Usher, Auditor




                                                                                    Page 22
                       Individual Taxpayer Identification Numbers Are
                 Being Issued Without Sufficient Supporting Documentation



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Senior Operations Advisor, Wage and Investment Division SE:W:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:RPA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 23
                             Individual Taxpayer Identification Numbers Are
                       Being Issued Without Sufficient Supporting Documentation



                                                                                                   Appendix IV

                                     Outcome Measures                            1




This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $412,454,748 in tax refunds related to 690,658 Applications
    for IRS Individual Taxpayer Identification Number (Form W-7) attached to
    1,171,355 individual tax returns processed in Calendar Years 2008 or 2009;
    $2,062,273,740 projected over 5 years (see page 5). 2

Methodology Used to Measure the Reported Benefit:
From the data provided by the IRS, computer analysis was used to stratify and identify a
universe of 1,530,006 ITINs assigned during the period January 1 through November 21, 2008.
The universe of 1,530,006 ITINs was separated into 3 strata: 1) 1,167,136 ITINs resulting from
Forms W-7 directly mailed or submitted through an IRS office, 2) 341,931 ITINs resulting from
Forms W-7 submitted by domestic Certified Acceptance Agents, and 3) 20,939 ITINs resulting
from Forms W-7 submitted by foreign Certified Acceptance Agents. Statistical sampling was
used to identify and review:
    •    123 Forms W-7 from stratum 1.
    •    348 Forms W-7 from stratum 2.
    •    187 Forms W-7 from stratum 3.


1
  Due to rounding, numbers and percentages may not balance.
2
  Only tax returns received from January 1 through November 21, 2008, were included in this analysis. Multiple
paper tax returns may be attached to Form W-7 applications and are usually processed in the processing year in
which they are received by the IRS. However, some tax returns were received in Processing Year 2008 but
processed in Processing Year 2009. This happens when the tax return is received later in the year, the application is
rejected and the ITIN is not assigned until later, or there is a problem with the tax return delaying the processing of
the return. When the ITIN is assigned and if there are no problems with the tax return, the tax return is processed.
However, if a tax return is received reflecting a balance due and the ITIN is not assigned, a temporary Taxpayer
Identification Number is assigned to the tax return and the tax return is processed. The outcome measure was based
on one filing of a tax return attached to the ITIN application received from January 1 through November 21, 2008,
and then multiplied by 5 to determine the refunds that could potentially be paid over 5 years for tax returns received
and attached to one ITIN application.
                                                                                                              Page 24
                             Individual Taxpayer Identification Numbers Are
                       Being Issued Without Sufficient Supporting Documentation



We used a confidence level of 95 percent, with a precision factor of ± 5 percent and expected
error rates of 10 percent for stratum 1, 35 percent for stratum 2, and 15 percent for stratum 3.
    •    For stratum 1, 123 Forms W-7 were obtained from the IRS Federal Record Center.
    •    For strata 2 and 3, letters were mailed to domestic and foreign Certified Acceptance
         Agents requesting Forms W-7, supporting documents, and tax returns. These 2 samples
         were limited to 348 for stratum 2 and 187 for stratum 3.
Tax return information was extracted from the IRS Individual Returns Transaction File 3 for
Calendar Years 2008 or 2009 or from the Integrated Data Retrieval System, 4 with command
codes 5 SUMRY, TXMDOA, IMFOLI, IMFOLT, INOLES and INOLEX. The data were used
to determine the refunds issued and tax liability owed for each of 510 ITINs. For the
658 Forms W-7 reviewed, 510 (78 percent) Forms W-7 were not adequately supported or errors
were found on the Forms W-7. Based on the results, an estimate was calculated from the
universe of ITINs totaling $1,929,001,682 in refunds or balance dues totaling $66,307,028 that
were issued due to errors identified during the review. A 95 percent confidence interval was
used to determine that the amount of refunds issued for the population is between $620,787,671
and $204,121,824. The margin of error is ± 208,332,923.
In summary, a total of 1,171,355 returns allowed $412,454,748 in refunds for Calendar
Years 2008 or 2009. A determination was made that over 5 calendar years $2,062,273,740 in
revenue could be protected. The $2,062,273,740 was calculated by multiplying $412,454,748
by 5. It should be noted that these outcomes are refunds calculated without the inclusion of the
Child Tax Credit and Additional Child Tax Credit because of the IRS’ response to a prior
Treasury Inspector General for Tax Administration report issued March 31, 2009. 6 In the prior
report, the Treasury Inspector General for Tax Administration recommended that legislation is
needed to clarify whether or not refundable tax credits such as the Additional Child Tax Credit
may be paid to filers without a Social Security Number. 7 The IRS responded that it will discuss
with the Office of Tax Policy, Department of the Treasury, the merits of an administration
proposal to amend the Internal Revenue Code to limit eligibility for both the Child Tax Credit
and Additional Child Tax Credit to individuals who have a Social Security Number issued by the
Social Security Administration rather than a number issued to an alien not authorized to work in
the U.S. Therefore, both Credits were excluded from the outcomes.

3
  The Returns Transaction File contains all edited, transcribed, and error-corrected data from the U.S. Individual
Income Tax Returns (Form 1040 series) and related forms for the current processing year and 2 prior years.
4
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
5
  Command codes are online interactive real-time programs in the IRS computer systems.
6
  Actions Are Needed to Ensure Proper Use of Individual Taxpayer Identification Numbers and to Verify or Limit
Refundable Credit Claims (Reference Number 2009-40-057, dated March 31, 2009).
7
  Actions Are Needed to Ensure Proper Use of Individual Taxpayer Identification Numbers and to Verify or Limit
Refundable Credit Claims (Reference Number 2009-40-057, dated March 31, 2009).
                                                                                                           Page 25
                         Individual Taxpayer Identification Numbers Are
                   Being Issued Without Sufficient Supporting Documentation



The outcome is potential and based on the realization that the outcome measure includes all
errors identified, but was not stratified by whether the error could prevent a tax return from being
filed. In addition, the outcome is contingent upon enhancement of internal controls.

Type and Value of Outcome Measure:
•   Revenue Protection – Potential; $175,815,700 in tax refunds related to 60,333 tax returns
    submitted during Calendar Years 1996 through 2008 and attached to 121,601 individual tax
    returns processed in Calendar Year 2008; $879,078,500 projected over 5 years (see page 14).

Methodology Used to Measure the Reported Benefit:
From the data provided by the IRS, computer analysis was used to identify a universe of
14 million ITINs assigned from Calendar Years 1996 through 2008. A volume of 60,333 ITINs
was identified as being used on multiple tax returns. The volume of 60,333 ITINs was matched
to the IRS Returns Transaction File to determine the volume of tax returns processed in Calendar
Year 2008. The analysis of the 60,333 ITINs determined 121,601 tax returns were filed. Of the
121,601 tax returns - 76,998 (63 percent) ITINs were used for dependents, 31,287 (26 percent)
were used for secondary taxpayers (spouses), and 13,316 (11 percent) were used for primary
taxpayers. A total of 72,333 multiple ITINs were used on these tax returns. Based on the
volume of tax returns, refunds were found in the amount of $202,271,388 and tax due in the
amount of $26,455,688.
In summary, a total of 72,333 multiple ITINs used on 121,601 multiple tax returns allowed
$175,815,700 in refunds for Calendar Year 2008. Because this could be a recurring issue, a
determination was made that over 5 calendar years, revenue could be increased by $879,078,500.
The $879,078,500 was calculated by multiplying $175,815,700 by 5. The outcome is potential
and contingent upon enhancement of internal controls preventing ITINs from being used on
multiple tax returns.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 318,107 taxpayer ITIN Forms W-7 were incorrectly
    input into the IRS Real-Time System; 1,590,535 projected over 5 years (see page 16).

Methodology Used to Measure the Reported Benefit:
From the data provided by the IRS, computer analysis was used to stratify and identify a
universe of 1,549,397 ITINs assigned during the period January 1 through November 21, 2008.
The universe of 1,549,397 Forms W-7 was separated into 5 strata: 1) 1,167,136 ITINs resulting
from Forms W-7 directly mailed or submitted through an IRS office; 2) 341,931 ITINs resulting
from Forms W-7 submitted by domestic Certified Acceptance Agents; 3) 20,939 ITINs resulting
from Forms W-7 submitted by foreign Certified Acceptance Agents; 4) 12,394 ITINs resulting
from Forms W-7 submitted by Acceptance Agents; and 5) 6,997 ITINs resulting from
                                                                                            Page 26
                                Individual Taxpayer Identification Numbers Are
                          Being Issued Without Sufficient Supporting Documentation



 Forms W-7 submitted with no designation of Acceptance Agent or Certified Acceptance Agent.
 Statistical sampling was used to identify and review:
 We used a confidence level of 95 percent, with a precision factor of ± 5 percent and an expected
 error rate of 10 percent for strata 1, 4, and 5. We used a confidence level of 90 percent, with a
 precision factor of ± 5 percent for strata 2 and 3 with expected error rates of 10 percent and
 7 percent, respectively. See Figure 1 for the results for strata and projection analysis.
                              Figure 1: Sampling and Projection Analysis
                                                                      Sample           Stratum           Projected
 Sample                                              Stratum
                                                                       Size          Population            Errors
 Direct Mail                                             1              123           1,167,136           265,689
 Domestic Certified Acceptance Agents                    2               91             341,931            41,332
 Foreign Certified Acceptance Agents                     3               63              20,939             7,644
 Acceptance Agents                                       4              136              12,394             2,187
 No Designation                                          5              134               6,997             1,253
 Total                                                                                1,549,397          318,107 8
Source: TIGTA statistical sample and analysis.

 The 547 Forms W-7 were reviewed and compared to the ITIN Real-Time System and 110 were
 identified as having been input incorrectly. Based on the sample results, an estimate was
 calculated from the universe of 1,549,397 Forms W-7, which determined 318,107 Forms W-7
 had been input incorrectly. The number of affected Forms W-7 is between 228,230 and 407,984
 (the margin of error is ± 89,877).




 8
     Due to rounding, the individual samples will not total to 318,107. Calculations are based on 318,107.




                                                                                                             Page 27
                      Individual Taxpayer Identification Numbers Are
                Being Issued Without Sufficient Supporting Documentation



                                                                            Appendix V

    Acceptable Documents When Applying for an
     Individual Taxpayer Identification Number

The following documents are acceptable by the IRS when applying for an ITIN:
•   Civil Birth Certificate.
•   Foreign Driver’s License.
•   Foreign Military Identification Card.
•   Foreign Voter’s Registration Card.
•   Medical Records (Dependent’s Only – under age 14; under age 18 if a student).
•   National Identification Card. The document must be current and contain the individual’s
    name, address, photograph, date of birth, and expiration date (e.g., Mexican Matricula
    card).
•   Passport (Stand Alone Document).
•   School Records (Dependent’s Only - under age 14; under age 18 if a student).
•   U.S. Citizenship and Immigration Services Photo Identification.
•   U.S. Driver’s License.
•   U.S. Military Identification Card.
•   U.S. State Identification Card.
•   Visa Issued by the U.S. Department of State.




                                                                                    Page 28
                           Individual Taxpayer Identification Numbers Are
                     Being Issued Without Sufficient Supporting Documentation



                                                                                          Appendix VI

            Errors Identified in Application Packages
                     Categorized by Sample

                                 Directly
                                                   Certified Acceptance          Certified Acceptance
                                 Mailed or
                                                     Agent Residing             Agent Residing Outside
                               Submitted to
                                                         in the U.S.                    the U.S.
                               an IRS Office
Requested documents
                                 NA       NA            81         23%               21          11%
were not provided
Documents missing,
incomplete, questionable,        19      15%          191          55%             131           70%
or illegible
Forms W-7 not signed
                                 15      12%          149          43%               67          36%
and/or dated
Certificates of Accuracy
                                 NA       NA            80         23%                4           2%
missing

Inconsistent birth dates          9       7%            13          4%                0           0%

Entry date conflicts with
                                  6       5%            35         10%              NA            NA
documents
Names on documentation
                                 15      12%            52         15%               74          40%
inconsistent with Form W-7

Tax returns not provided         NA       NA          102          29%                7           4%

Source: Treasury Inspector General for Tax Administration analysis of Forms W-7 processed in Calendar
Year 2008. NA=Not Applicable. Form W-7 = Application for IRS Individual Taxpayer Identification Number. The
percentages will not total to 100 due to packages containing more than 1 type of error.




                                                                                                   Page 29
                           Individual Taxpayer Identification Numbers Are
                     Being Issued Without Sufficient Supporting Documentation



                                                                                          Appendix VII

      Rules for Claiming the Child Tax Credit and the
                Additional Child Tax Credit

The child must meet all five tests listed below to qualify for the Child Tax Credit and Additional
Child Tax Credit.
1. The child must be the taxpayer’s son, daughter, stepchild, foster child, brother, sister,
   stepbrother, stepsister, or a descendant of any of them (for example, a grandchild, niece, or
   nephew).
2. The child must be under age 17 at the end of the tax year.
3. The child must not have provided more than one-half of his or her own support for the tax
   year.
4. The child must have lived with the taxpayer for more than one-half of the tax year. 1
5. The child must be a U.S. citizen, a U.S. national, 2 or a resident of the U.S. U.S. Tax Guide for
   Aliens (Publication 519) states that an individual will be considered a U.S. resident for tax
   purposes if he or she meets the substantial presence test for the calendar year. To meet this
   test, the individual must be physically present in the U.S. on at least 31 days during the
   current year, and 183 days during the 3-year period that includes the current year and the
   2 years immediately before.




1
 Child Tax Credit (Publication 972) contains some exceptions to the time lived with the taxpayer.
2
 A U.S. national is an individual who, although not a U.S. citizen, owes his or her allegiance to the U.S. U.S.
nationals include American Samoans and Northern Mariana Islanders who chose to become U.S. nationals instead of
U.S. citizens.
                                                                                                      Page 30
           Individual Taxpayer Identification Numbers Are
     Being Issued Without Sufficient Supporting Documentation



                                                  Appendix VIII

Management’s Response to the Draft Report




                                                          Page 31
                            Individual Taxpayer Identification Numbers Are
                      Being Issued Without Sufficient Supporting Documentation




                                                    2

the previous audit, Inadequate Management Information Has Adversely Affected the Acceptance Agent
Program (Reference Number 2009-40-087, dated June 19, 2009), that this was an area of concern. As a
result of your use of this over-sampling of CAA applications methodology, we believe the conclusions
identified in your report are not a true representation of the overall program.

We also would point out that on Page 13 of your report you note that
**************************************1***********************************************
**************************************************************************************
**** However, this is not an accurate statement since Sections 151 and 152 of the Internal Revenue Code
do not require parenthood. Therefore these exemptions would not necessarily be denied.

We agree with the first two Outcome Measures in the report. We disagree with the third Outcome Measure
that 318,107 taxpayer ITINs were incorrectly input to the ITIN RTS. The calculation should be (110/547) x
1,549,397 =311,579. This also changes the 5year projected number to 1,557,895.

Attached are our comments on your specific recommendations. If you have any questions, please call me at
(404) 338-7060, or a member of your staff may contact Peter J. Stipek, Director, Customer Account
Services, Wage and Investment Division, at (404) 338-8910.

Attachment




                                                                                                 Page 32
      Individual Taxpayer Identification Numbers Are
Being Issued Without Sufficient Supporting Documentation




                                                     Page 33
      Individual Taxpayer Identification Numbers Are
Being Issued Without Sufficient Supporting Documentation




                                                     Page 34
      Individual Taxpayer Identification Numbers Are
Being Issued Without Sufficient Supporting Documentation




                                                     Page 35
      Individual Taxpayer Identification Numbers Are
Being Issued Without Sufficient Supporting Documentation




                                                     Page 36
